HHS/OIG, Audit -"Medicaid Graduate Medical Education in
Texas," (A-06-06-00027)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Graduate Medical
Education in Texas," (A-06-06-00027)
April 18, 2006
Complete Text of Report is available in PDF format (548 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to analyze
Texass Medicaid Graduate Medical Education (GME) payment formula and the
methods Texas used to establish the amount of funds that individual hospitals
would receive and to determine whether (1) Texas followed the approved State
plan in administering the Medicaid GME program and (2) intergovernmental
transfers (IGTs) included any program funds. The State made unallowable Medicaid
GME payments to ineligible hospitals totaling $318,778 ($175,323 Federal share).
We recommended that Texas refund $318,778 ($175,323 Federal share) to CMS for
the overpayments made to ineligible hospitals and review the eligibility of each
teaching hospital annually.  Texas partially agreed with our findings and
recommendations.  State officials have recouped $256,735 and plan to
recoup an additional $14,739. State officials will review the remaining $47,304
and recoup any unallowable amounts.